Audit Report




OIG-10-030
SAR Data Quality Requires FinCEN’s Continued Attention
January 19, 2010




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Background ................................................................................................ 6

    Findings and Recommendations .................................................................... 12

        Data Quality Problems Were Identified in More than Half of the
        SARs Filed During Fiscal Year 2006 .......................................................... 12

        Improved System Controls Are Needed...................................................... 24

    Conclusions ................................................................................................ 27

    Recommendations ....................................................................................... 28

Appendices

    Appendix 1:          Objective, Scope, and Methodology . ………………………………… 32
    Appendix 2:          FinCEN Actions Taken on the Recommendations in the 2005
                         OIG Audit Report .................................................................. 35
    Appendix 3:          Management Response ......................................................... 39
    Appendix 4:          Major Contributors to This Report ........................................... 44
    Appendix 5:          Report Distribution ................................................................ 45

Abbreviations

    BSA                      Bank Secrecy Act
    CTR                      Currency Transaction Report
    EIN                      employer identification number
    FinCEN                   Financial Crimes Enforcement Network
    IRS                      Internal Revenue Service
    MSB                      money services business
    OIG                      Office of Inspector General
    SAR                      Suspicious Activity Report
    TIN                      taxpayer identification number
    WebCBRS                  Web-based Currency Banking and Retrieval System




                             SAR Data Quality Requires FinCEN’s Continued Attention                          Page i
                             (OIG-10-030)
      This page intentionally left blank




SAR Data Quality Requires FinCEN’s Continued Attention   Page ii
(OIG-10-030)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                      January 19, 2010

                      James H. Freis, Jr.
                      Director, Financial Crimes Enforcement Network

                      The Financial Crimes Enforcement Network (FinCEN) administers
                      and enforces the Bank Secrecy Act (BSA). One of FinCEN’s critical
                      BSA functions is the collection and maintenance of data on
                      suspicious transactions. These data are collected through
                      suspicious activity reports (SAR) filed by financial institutions and
                      maintained by the Internal Revenue Service (IRS). FinCEN, law
                      enforcement agencies, and others use these data to identify trends,
                      develop intelligence information on money laundering and terrorist
                      financing, and apprehend criminals. To be most useful, it is vital
                      that these data be as accurate and complete as possible.

                      Since 1999, we have issued three audit reports on SAR data
                      quality. 1 These audits found a large percentage of SARs contained
                      missing or inaccurate data. In the most recent audit, in 2005, we
                      reported that SAR filers disregarded SAR form instructions, did not
                      always understand the violations listed on the SAR form, or were
                      concerned with personal liability. Also, an IRS contractor made
                      errors while creating electronic databases from paper SARs. This
                      resulted in SARs with missing or inaccurate data not being
                      identified or corrected before or after the SARs were entered into
                      the database. We concluded that overall system control
                      weaknesses, broad reliance on financial supervisory regulators to
                      ensure financial institutions’ compliance with SAR filing
                      requirements, and factors unique to either the type of filer or the
                      filing means contributed to the data quality problems. FinCEN
                      concurred with our findings and recommendations and committed
                      to a corrective action plan, but stressed that undue focus on data


1
  FinCEN: Heightened Management Attention Needed Over Longstanding SAR Data Quality Problems,
OIG-05-033 (Mar. 23, 2005); FinCEN: Reliability of Suspicious Activity Reports, OIG-03-035 (Dec. 18,
2002); The Financial Crimes Enforcement Network Suspicious Activity Reporting System, OIG-99-032
(Jan. 25, 1999).

                      SAR Data Quality Requires FinCEN’s Continued Attention                   Page 1
                      (OIG-10-030)
                        quality could undermine the overall effectiveness of SAR reporting
                        programs by creating distorted incentives.

                        The objective of this audit was to evaluate the status of SAR data
                        quality. We reviewed the actions FinCEN took in response to our
                        2005 audit report recommendations, evaluated the current
                        processes for receiving and processing SARs, and analyzed one
                        year’s worth of SAR data. Appendix 1 describes our audit
                        objective, scope, and methodology in more detail.

                        We performed our fieldwork for this audit between January 2007
                        and March 2008. In August 2008, we provided FinCEN with a
                        draft of this report and held an exit conference with FinCEN
                        officials in September 2008. Issuance of this final report was
                        delayed due to other priority work by our office. That work
                        principally relates to an unprecedented number of reviews of failed
                        financial institutions that we are required to perform under the
                        Federal Deposit Insurance Act, as amended. As a result, the SAR
                        data we analyzed during our fieldwork is now over 3 years old.
                        Furthermore, we acknowledge that FinCEN may have taken actions
                        to improve the SAR data quality since our exit conference. That
                        said, however, we believe it is still relevant to report our findings
                        as they provide a benchmark for measuring changes in SAR data
                        quality going forward. Given the essential supporting value of SAR
                        data to law enforcement investigations, we plan to conduct follow-
                        up audits of this area as appropriate. Furthermore, the
                        recommendations in this report address matters that require
                        continued FinCEN management attention.


Results in Brief
                        SAR data quality had not significantly improved by 2006. We
                        reviewed data fields 2 critical to law enforcement for 1.1 million
                        SARs filed in fiscal year 2006 by depository institutions, money
                        services businesses (MSB), casinos and card clubs, and securities

2
 A data field is a specific area of an electronic record allocated for a particular category of data, usually
one data element, such as a name, address, or date. Critical data fields are fields in the SAR form that
have significant value and importance to law enforcement. Critical data fields were identified by
combined efforts of law enforcement agencies, regulators, members of the financial industry, and
Treasury offices. The critical data fields we examined were common to all SAR forms and
determined by FinCEN to be responsive to the needs of law enforcement, regulators, and SAR filers.

                        SAR Data Quality Requires FinCEN’s Continued Attention                        Page 2
                        (OIG-10-030)
                       and futures firms. We found that 59 percent of these SARs had
                       instances of missing, incomplete, inappropriate, or inconsistent
                       information. (Hereafter, we refer to these types of issues
                       collectively as data quality problems.) SARs filed by MSBs (88
                       percent) had the highest percentage of data quality problems,
                       followed by securities and futures firms (50 percent), casinos and
                       card clubs (49 percent), and depository institutions (34 percent).
                       The largest filers of SARs are depository institutions (about 53
                       percent of the total filed during fiscal year 2006); in contrast, the
                       number of SAR filings by casinos/card clubs and securities and
                       futures firms amount to only about 1 percent of the total.

                       The most frequent data quality problems involved the subject’s
                       taxpayer identification number (TIN) 3 (44 percent), address field
                       (22 percent), and name (10 percent). 4 These data are critical for
                       law enforcement investigations and intelligence analyses to
                       connect potentially related data from various sources.

                       We also found thousands of SAR errors that were neither identified
                       nor corrected during SAR processing. These included incorrect
                       recording dates, shifting of data from one field to another which
                       changed the data’s meaning, and missing or unassigned document
                       control numbers.

                       During our exit conference, FinCEN management agreed with the
                       need to correct data errors, but disagreed that missing data
                       requires more attention. Management also pointed out that the
                       SAR form instructs filers to leave fields blank when information is
                       not available. Accordingly, filers are not required to provide
                       information for each of the critical data fields. Management further
                       stated that while law enforcement prefers to have more
                       information than less, incomplete SARs do not invalidate their
                       usefulness to law enforcement. Instead of devoting resources to
                       missing data, FinCEN’s approach is focused on fixing data quality
                       problems that occur during processing. FinCEN management noted
                       that it had a number of information technology modernization
3
  IRS uses TINs, which consist of unique nine-digit numeric values, to administer tax laws.
4
  For this field, we counted as omissions the SARs in which the field was blank. We counted as errors
those fields in which the filer listed information that was invalid data (such as a misplaced address or a
string of meaningless characters). For SARs filed by depository institutions, subject is referred to as a
suspect. We will at times refer to suspect in the body of the report. Subject and suspect refer to the
same individuals.

                       SAR Data Quality Requires FinCEN’s Continued Attention                       Page 3
                       (OIG-10-030)
                      projects it would like to pursue, but funding for these initiatives has
                      not been available. Furthermore, FinCEN views improperly filed
                      SARs as a compliance issue for the regulators or examining
                      agencies to address.

                      We agree that if filers do not have information for a critical field it
                      follows that the field would be left blank. The manner in which
                      many SARs were completed, though, suggests that the filers
                      should have used more due diligence in preparing the forms. Also,
                      we cautioned that it cannot always be presumed that the reason a
                      field is blank is because the filer did not have the information
                      available. For example, for depository institution SAR submissions,
                      filers are supposed to indicate when the subject data are
                      unavailable and left blank. This field, however, was not
                      consistently used by filers to accurately indicate when subject data
                      was or was not available. 5 Furthermore, we did not count missing
                      subject data for any type of SAR where the reported suspicious
                      activity amount was less than $3,000 because, in some cases,
                      filers are not required to record subject information for transactions
                      falling beneath that threshold.

                      In addition, some of the missing SAR data should have been
                      available to the filer, including the type of suspicious activity, the
                      institution’s address, or the location of the suspicious activity.
                      Moreover, we found a disparity among similar institutions in the
                      percentage of SARs with missing or erroneous data. This raises a
                      question of why certain institutions are consistently able to submit
                      a higher percentage of complete and accurate SARs than others.

                      Recommendations

                      To further improve SAR data quality, we are recommending that
                      FinCEN: (1) continue and enhance its filer education and outreach
                      programs; (2) identify and refer to the federal regulators those
                      financial institutions with significant and recurring SAR quality
                      problems; (3) coordinate with IRS to evaluate, implement, and
                      improve controls over SAR data; and (4) request IRS to periodically
                      notify FinCEN of SARs containing significant errors or missing
                      critical data fields.

5
 We also noted other instances where the box was checked, but the filer provided some information on
the subject.

                      SAR Data Quality Requires FinCEN’s Continued Attention                 Page 4
                      (OIG-10-030)
Management Response

FinCEN noted that the findings in this report are based on SAR data
filed in fiscal year 2006 and, since that time, FinCEN has
completed efforts to improve the quality and integrity of SAR data.
These efforts include enhancing the BSA electronic filing (E-Filing)
system and improving the quality of BSA information through
regulatory guidance and outreach.

FinCEN concurred with our recommendations and detailed the
actions it has taken or planned in response to each
recommendation. FinCEN has

    •   issued specific guidance to enhance filer education, which it
        views as an ongoing responsibility;
    •   established an initiative to identify systemic filing errors and
        in fiscal year 2009 worked with federal regulators to resolve
        over 100 such matters;
    •   worked with IRS to resolve matters associated with the
        recording, processing, accounting for, and loading of SARs.

By February 2010, FinCEN plans to have a SAR validation process
in place that identifies all SAR filings with significant errors for its
compliance staff to monitor.

Additionally, FinCEN stated that it plans to launch a BSA
information technology modernization program in fiscal year 2010.
This initiative aims to modernize BSA information management,
analysis, and dissemination and, through increased data integrity
and analytical tools, provide hundreds of federal, state, and local
law enforcement agencies and financial industry regulators better
decision-making abilities and increase the value of BSA information.

FinCEN’s actions, taken and planned, meet the intent of our
recommendations. FinCEN’s full response is provided in
appendix 3.




SAR Data Quality Requires FinCEN’s Continued Attention             Page 5
(OIG-10-030)
Background
                       BSA Administration

                       FinCEN’s mission is to enhance national security, deter and detect
                       criminal activity, and safeguard financial systems from abuse by
                       promoting transparency in the U.S. and international financial
                       systems. 6 To fulfill its mission, FinCEN needs to ensure, among
                       other things, the competent collection, maintenance, and
                       dissemination of SARs that financial institutions file when they
                       identify a suspected criminal activity, such as money laundering or
                       terrorist financing. 7

                       Approximately 18 million BSA reports of various types are filed
                       each year by about 200,000 financial institutions currently subject
                       to BSA reporting and recordkeeping requirements. 8 The vast
                       majority of these reports are currency transaction reports (CTR),
                       which are required (unless they meet certain exemption criteria) for
                       cash transactions exceeding $10,000. SARs are filed when
                       transactions are suspicious in nature because they appear to
                       involve such activity as structuring (using transactions under
                       $10,000 to avoid being the subject of a CTR), bribery, fraud, use
                       of counterfeit instruments, identity theft, terrorist financing, and
                       the like. SARs generate leads that law enforcement agencies use to
                       initiate or help complete money-laundering and terrorist-financing
                       investigations.

                       BSA Data Repository and Access

                       IRS, through its Enterprise Computing Center in Detroit, Michigan,
                       serves as the government’s central repository for BSA data. 9 IRS

6
  Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct
Terrorism (USA PATRIOT) Act of 2001, Pub. L. No. 107-56, Title III, Subtitle B, Section 361(a)(2), 115
Stat. 272, 329-332, codified in relevant part at 31 U.S.C. § 310(b); Amended December 2004 (Pub. L.
No. 108-458), February 2006 (Pub. L. No. 109-170), and March 2006 (Pub. L. No. 109-177).
7
  31 CFR § app. 103.17–21.
8
  For purposes of this report, the term financial institution refers to depository institutions, such as
banks, credit unions, and thrifts; MSBs (which include money transmitters, issuers, redeemers and
sellers of money orders and travelers’ checks, check cashers, and currency exchangers); casinos and
card clubs; and brokers or dealers in securities and futures.
9
  Although the SAR database resides at and is maintained by IRS, FinCEN is statutorily responsible for
the data (31 U.S.C. app. § 310, Pub. L. No. 107-56, 115 Stat. 329-330).

                       SAR Data Quality Requires FinCEN’s Continued Attention                    Page 6
                       (OIG-10-030)
                      maintains the information technology infrastructure and operations
                      needed to collect BSA data; convert paper, magnetic, and
                      electronic BSA filings to standardized electronic records; and,
                      where appropriate, correct errors in the forms submitted by filers.

                      IRS maintains a BSA data storage and retrieval system known as
                      WebCBRS. 10 IRS criminal investigators, as well as federal, state,
                      and local law enforcement organizations, access the BSA data
                      through WebCBRS for investigative and intelligence purposes.
                      Federal regulatory agencies, such as the Federal Reserve, Securities
                      and Exchange Commission, and various federal banking agencies
                      also access BSA data through WebCBRS for compliance and
                      enforcement purposes. Certain law enforcement agencies, such as
                      the Federal Bureau of Investigation and U.S. Secret Service, prefer
                      to periodically obtain downloads of bulk BSA data and perform
                      their own analyses by combining the BSA data with data from
                      other sources.

                      Various Media Are Used to File SARs With IRS

                      SARs are filed with IRS by paper, magnetic diskettes or cartridges,
                      or E-Filing. 11 Each SAR is assigned a sequential document control
                      number for tracking purposes. SARs filed by paper are received by
                      IRS in Detroit, forwarded to an outside contractor in North Dakota
                      where the data are key-entered to magnetic format, and then
                      electronically transmitted back to IRS for uploading into the
                      database. Prior to January 1, 2009, SARs filed by magnetic
                      diskettes and cartridges were received at IRS and uploaded directly
                      into the SAR database. SARs filed through E-Filing are accumulated
                      by FinCEN and transmitted to IRS for upload. Figure 1 on the next
                      page depicts the filing process in place during the audit period.




10
   Web-based Currency and Banking Retrieval System (WebCBRS) is IRS’s data warehouse and
information retrieval system.
11
   As of January 1, 2009, filers are no longer allowed to submit SAR data using magnetic media.

                      SAR Data Quality Requires FinCEN’s Continued Attention                      Page 7
                      (OIG-10-030)
Figure 1: How SARs Are Filed




                     SAR Data Quality Requires FinCEN’s Continued Attention   Page 8
                     (OIG-10-030)
SAR Form Provides for a Financial Institution to Report Information
About the Suspect and the Suspicious Activity

The SAR form includes space for a financial institution to report
information about suspicious activity and the suspect in question.
Suspect information includes, among other things, name, address,
and other identifying information. The form also provides for the
institution to include information about the date(s), type, and
dollar amount of suspicious activity. The following excerpt from
the SAR form for depository institutions shows the types of
suspicious activities that should be reported.




In addition, the SAR requires a narrative description of the activity.
This section requires the financial institution to provide a detailed
explanation or description of the suspicious activity and is needed
to help law enforcement better understand what transpired,
including what was unusual, irregular, or suspicious about the
transaction.

SAR forms vary by the type of institution, such as a depository
institution or MSB, but these differences are relatively minor in
nature. The SAR form for depository institutions, securities and
futures industries and casinos each includes a check-off box to
indicate when subject data are not available.




SAR Data Quality Requires FinCEN’s Continued Attention          Page 9
(OIG-10-030)
Previously Reported SAR Data Quality Problems and Corrective
Actions Taken

In January 1999, we reported on problems concerning SARs with
missing information deemed critical by law enforcement. In
December 2002, we reported on similar problems with SAR data
quality and identified approximately 3,000 duplicate filings in the
SAR database. In March 2005, we reported that FinCEN had made
little progress in addressing the weaknesses reported in our 2002
audit, and had not established standards for monitoring SAR data
quality. Of the SARs sampled as part of the 2005 audit, we
reported that 62 percent contained data quality problems in one or
more critical SAR data fields. We also reported that the number of
duplicates in the SAR database had grown to an estimated
15,000. We concluded that the continued absence of adequate
internal controls to detect and prevent problem SARs from
entering into the SAR database remained the primary cause of the
data quality problems.

FinCEN’s approach to enhancing data quality focused on education
and outreach combined with a periodic analyses of the reports
filed and, when appropriate, remedial action against filers with
systemic data quality issues. FinCEN management officials said
they took this approach, in lieu of preventing SARs with blank or
incomplete fields from being filed, because even imperfect SARs
may have information critical to law enforcement.

FinCEN took a number of actions in response to our audit
recommendations. FinCEN

•   assigned to three assistant directors responsibility and
    accountability for ensuring the accuracy and timeliness of
    the SAR data system;

•   instituted measurable standards to address the critical data
    fields that are responsive to the needs of law enforcement,
    federal regulators, and SAR filers;

•   worked with federal banking agencies to draft interagency
    BSA and anti-money laundering examination procedures;



SAR Data Quality Requires FinCEN’s Continued Attention        Page 10
(OIG-10-030)
                    •   established policies and procedures for follow-up on
                        regulatory referrals to federal regulators to determine their
                        supervisory resolution;

                    •   implemented quarterly reports generated by IRS
                        identifying duplicate SAR submissions and counts of SAR
                        submissions with data omitted from critical fields;

                    •   continued with its outreach efforts in several ways
                        (including posting on its Web site in March 2008
                        frequently asked questions about SARs, publishing SAR
                        Activity Review, Trends, Tips, and Issues, 12 issuing filing
                        guidance, hosting a nationwide training conference call
                        for MSBs in collaboration with IRS in March 2008 to
                        provide tips on filing accurate CTRs and SARs, and
                        issuing additional guidance highlighting the instructions
                        for MSBs to file SARs, with instructions for completing a
                        critical field when information is unavailable or
                        inapplicable); and

                    •   established a Data Management Council in July 2007 to
                        provide a forum among internal and external stakeholders,
                        including law enforcement, to discuss, review, and
                        prioritize BSA data issues.

                    We also recommended that FinCEN reassess how the
                    contractor’s 3 percent error rate is measured and that
                    greater consideration be given to the number of SARs with
                    errors rather than just the total number of errors per SAR.
                    We believed this change added perspective to situations in
                    which a few SARs account for a large number of errors as
                    opposed those in which each of a large number of SARs has
                    a few errors. FinCEN decided not to request IRS to change
                    its contractor measurement process.

                    FinCEN told us that the most cost-effective approach to reducing
                    SAR omissions is to move more filers to electronic filing and to

12
   SAR Activity Review, Trends, Tips, and Issues has been published twice a year since
October 2000. It reports on SAR-related areas of interest to both government agencies and
financial institutions.


                    SAR Data Quality Requires FinCEN’s Continued Attention          Page 11
                    (OIG-10-030)
                      revise the SAR forms and instructions. As of January 1, 2009,
                      filers are no longer allowed to submit SAR data using magnetic
                      media.

                      Furthermore, FinCEN delayed implementation of revised SAR
                      forms for depository institutions, casinos and card clubs,
                      insurance companies, and securities and futures firms. 13 FinCEN
                      has not announced when revised forms will be implemented and
                      said that it will continue to monitor omissions through IRS’s
                      quarterly reports until the new SAR forms are available.

                      In 2005, we also reported that three MSBs were collectively
                      responsible for 77 percent of the problem SARs filed by
                      MSBs. FinCEN issued a civil monetary penalty to Western
                      Union, in part, for SAR deficiencies. Because the second
                      MSB was owned by the same parent company, FinCEN
                      expected any corrective actions taken by Western Union
                      would correct problems at the affiliated company. For the
                      third MSB, the U.S. Postal Service (USPS), FinCEN said it
                      had used outreach to achieve improvements. FinCEN’s Office
                      of Compliance conducted further SAR monitoring and
                      outreach with the three MSBs in 2007, when additional
                      errors were detected, and determined that the errors were
                      caused by systemic programming and preparation errors. The
                      three MSBs have since implemented revised procedures and
                      FinCEN said its reviews of the SAR filings for these MSBs in
                      2008 found no systemic filing problems.

                      Appendix 2 provides a detailed listing of the 2005 audit’s
                      recommendations and FinCEN’s corrective actions.


Findings and Recommendations

Finding 1             Data Quality Problems Were Identified in More Than Half
                      of the SARs Filed During Fiscal Year 2006

                      We found that 59 percent of the SARs filed in fiscal year 2006
                      had data quality problems (missing, incomplete, inconsistent, or

13
   According to FinCEN, the new forms will be implemented after FinCEN and IRS resolve outstanding
issues with the systems processing of SAR data.

                      SAR Data Quality Requires FinCEN’s Continued Attention                Page 12
                      (OIG-10-030)
                        inappropriate information) in one or more fields critical to law
                        enforcement. The preponderance of problem SARs were filed by
                        MSBs (approximately 428,000) and depository institutions
                        (192,000). The critical fields most often containing missing or
                        erroneous data related to the subject, including name, address, or
                        identifying information. We believe these SAR data quality
                        problems diminish the usefulness of the data for FinCEN, law
                        enforcement, and other users. 14

                        FinCEN management emphasized that data omissions are
                        legitimate when data are not available to the filer, and SAR forms
                        generally instruct the filers to leave fields blank when filers do not
                        have the related information. While data omissions may be
                        legitimate, we found inconsistencies in how depository institution
                        files used a data field indicating this information was not available.
                        We also observed certain blank SAR fields for information that the
                        filing institution should clearly have had available, such as the type
                        of suspicious activity observed, the institution’s address, or the
                        address of the suspicious transaction. Furthermore, we observed
                        significant variation in the percentage of SARs with missing data
                        among similar depository institutions, which raises questions
                        about the diligence of certain depository institutions when filing
                        SARs.

                        Number of SARs Filed by Financial Institutions

                        Approximately 1.1 million SARs were filed by financial
                        institutions in fiscal year 2006. The vast majority of these
                        SARs, about 99 percent, were filed by depository institutions
                        and MSBs, while casinos and card clubs and securities and
                        futures firms, combined, filed the remaining 1 percent. The
                        number of SARs filed by institution type is shown below in
                        figure 2.




14
  In assessing the quality of the data, we did not count omissions in the six critical subject fields for
SARs where the reported suspicious activity amount was less than $3,000.

                        SAR Data Quality Requires FinCEN’s Continued Attention                      Page 13
                        (OIG-10-030)
                         Figure 2: Number of Fiscal Year 2006 SARs Filed by Institution
                                   Type

                                       600,000
                                                 563,376
                                                                485,251
                                       500,000


                                       400,000
                       S A R s Filed




                                       300,000


                                       200,000


                                       100,000
                                                                                    7,689             6,833
                                            0
                                                 Depository      MSBs            Securities and   Casinos and Card
                                                 Institutions                    Futures Firms         Clubs
                                                                        Type of Filer

                         Note: This figure does not include 2,603 SARs filed by depository institutions
                         received by IRS in September 2006 that were not loaded into WebCBRS until
                         February 2007 and 2 SARs filed by securities and future firms that were received in
                         September 2006 and not transmitted to FinCEN until October 2007.

                         Source: OIG analysis of fiscal year 2006 SAR data.


                       SAR Data Quality Problems

                       In our review of the fiscal year 2006 SAR filings, we
                       examined 17 data fields FinCEN identified as critical for law
                       enforcement. 15 We found that 59 percent of the SARs filed
                       during fiscal year 2006 either had omissions in one or more
                       of the critical fields, or contained incorrect, inconsistent, or
                       inappropriate information.

                       SARs filed by MSBs were most likely to have data quality
                       problems. About 88 percent of SARs filed by MSBs had
                       problems, a 20 percentage point increase over what we

15
   The 17 critical data fields we examined were common to all SAR forms and determined by
FinCEN to be responsive to the needs of law enforcement, federal regulators, and SAR filers. This is
more fully defined in footnote 2 above.

                       SAR Data Quality Requires FinCEN’s Continued Attention                                    Page 14
                       (OIG-10-030)
                       reported in 2005. About 34 percent of SARs filed by
                       depository institutions had problems, a 22 percentage point
                       decrease from what we reported in 2005. In addition, we
                       found that approximately half of the SARs filed by casinos
                       and card clubs and the securities and futures firms had data
                       quality problems. 16

                       Table 1 shows the number of fiscal year 2006 SARs with data
                       quality problems by institution type.

                        Table 1: Fiscal Year 2006 SARs With Data Quality Problems
                                  By Institution Type
                                                                       Problem    Problem SAR
                        Institution type              Total SARs         SARs       percentage
                        Depository institutions              563,376        191,622         34%
                        MSBs                                 485,251        427,934         88%
                        Casinos and card clubs                 6,833          3,368         49%
                        Securities and futures firms           7,689          3,822         50%
                          Total                            1,063,149        626,746         59%
                       Source: OIG analysis of fiscal year 2006 SAR database.

                       Table 2 shows, by filer group and critical data field, the number
                       and percentage of SARs with data quality problems.




16
  We did not sample SARs filed by casinos/card clubs or securities and futures firms in our 2005
audit. The requirement for casinos/card clubs and securities and futures firms to file SARs became
effective in 2002.

                       SAR Data Quality Requires FinCEN’s Continued Attention                  Page 15
                       (OIG-10-030)
Table 2: SARs With Data Quality Problems by Field and Filer Group
                                                                 Securities
                      Casinos and    Depository                and futures
Critical Field          card clubs Institutions       MSBs           firms                  Total   Percent
Subject’s SSN/EIN/
                                2,405        127,537       333,573           2,176      465,691          44%
ITINa
Subject’s address               1,158          64,716      162,845           1,944      230,663          22%
Subject’s city                    922          61,582      154,455           1,572      218,531          21%
Subject’s state                   945          65,933      156,109           1,462      224,449          21%
Subject’s ZIP code                984          66,002      158,264           1,526      226,776          21%
Type of activity                   85           8,431      152,659              57      161,232          15%
Subject’s name                    655          32,483       76,053           1,046      110,237          10%
Institution’s                                                                                             8%
                                   242          7,410       81,816             667       90,135
location/TIN
Institution’s                                                                                            4%
                                   432          8,106       37,759               57      46,354
location/address
Dollar amount                      100         24,691        3,683             854       29,328          3%
Contact phone                       61         14,550       14,150              19       28,780          3%
Narrative                          836          5,650       25,702             306       32,494          3%
Institution’ s                                                                                           2%
                                   110          1,572       24,192               42      25,916
Location/ZIP code
Date of activity                    63          5,654         7,449            362       13,528          1%
Institution’s                                                                                            1%
                                    62            286       11,779               31      12,158
location/name
Institution’s                                                                                            1%
                                    41            420       13,415               33      13,909
location/city
Institution’s                                                                                            1%
                                    62            258       13,340               39      13,699
location/state
a
  SSN/EIN/ITIN refers to Social Security number, employer identification number, and individual’s
tax identification number.
Note: SARs often had problems in one or more critical fields.

Source: OIG analysis of fiscal year 2006 SAR data.




             SAR Data Quality Requires FinCEN’s Continued Attention                            Page 16
             (OIG-10-030)
Figure 3 shows subject field problems by filer group. As the
figure illustrates, MSBs had the highest percentage of problems,
reaching close to 80 percent for subject’s Social Security number,
employer identification number (EIN), or individual’s TIN.

           Figure 3: Subject Field Data Quality Problems by Filer Group

                         80%



                         70%



                         60%
Percentage of Problems




                         50%

                                                                                                             SAR-depository
                                                                                                             institutions
                         40%
                                                                                                             SAR-MSBs

                                                                                                             SAR-casinos and
                         30%                                                                                 card clubs
                                                                                                             SAR-securities and
                                                                                                             futures firms
                         20%



                         10%



                         0%
                               Last Name   Address   City                State   ZIP Code   SSN, EIN, or
                                                                                               ITIN
                                                            Data Field


           Source: OIG analysis of fiscal year 2006 SAR data.


In one SAR field, filers are required to characterize the suspicious
activity being reported. In cases where the activity does not
correspond to an available code, SAR guidance instructs filers to
select “other” and to provide a brief description. We found,
however, that the suspicious activity was often characterized
incorrectly or not at all. For example, we identified approximately
65,000 SARs (approximately 64,000 MSB SARs and 1,000
depository institution SARs) with “other” selected but either no
description or an invalid description of the activity. Invalid
descriptions took many forms. For example, we noted suspicious
activity described as a string of numbers, the words “not sure,”
“who knows,” “nothing suspicious,” or other similar and
meaningless information.

SAR Data Quality Requires FinCEN’s Continued Attention                                                     Page 17
(OIG-10-030)
                       A second example included about 68,400 SARs (approximately
                       68,000 from MSBs and 400 from depository institutions) where
                       an entry was made in the other activity type description field but
                       the “other” activity type code was not selected by the filer. In
                       addition, we found approximately 27,500 SARs (20,500 from
                       MSBs and 7,000 from depository institutions) with no suspicious
                       activity code identified at all. 17

                       Figure 4 following shows that MSBs had more problems in
                       providing filer identifying information in almost all categories than
                       the other filers. For example, about 11 percent of SARs filed by
                       MSBs had problems with the transaction location’s employer
                       identification number or TIN.




17
 As explained later in this report, the content of the activity type field was affected by data shifting,
which may have resulted in SARs with unintended content in this field.

                       SAR Data Quality Requires FinCEN’s Continued Attention                      Page 18
                       (OIG-10-030)
                              Figure 4: Filer Identifying Information Data Quality Problems by Filer
                                       Group

                         12.00%




                         10.00%




                         8.00%
Percentage of Problems




                                                                                                                        SAR-depository institutions
                                                                                                                        SAR-MSBs
                         6.00%
                                                                                                                        SAR-casinos and card clubs
                                                                                                                        SAR-securities and futures firms



                         4.00%




                         2.00%




                         0.00%
                                  Name (1)   Address (1)   City (1)   State (1)    Zip Code (1) EIN/TIN (1)   Contact
                                                                                                               Phone
                                                                      Data Field




                              (1) These fields are used to record the location of the suspicious activity on MSB
                              SARs. On all other SARs, these fields are for recording the filer’s information.
                              Source: OIG analysis of fiscal year 2006 SAR data.


                            Figure 5 following shows that for suspicious activity data fields,
                            the field with the most problems was the type of suspicious
                            activity, involving nearly a third of the SAR forms filed by MSBs.
                            Approximately 12 percent of the SARs filed by casinos and card
                            clubs had deficient narratives, where either (1) the narrative was
                            not provided, was entirely blank or included language that
                            documentation was attached or enclosed, contrary to SAR
                            instructions; or (2) did not meet the standard of an acceptable
                            narrative (defined by FinCEN as being more than 40 characters in
                            length). About 11 percent of SARs filed by securities and futures
                            firms had problems with the dollar amounts field associated with
                            the suspicious activity.



                            SAR Data Quality Requires FinCEN’s Continued Attention                                                    Page 19
                            (OIG-10-030)
                              Figure 5: Data Quality Problems for Suspicious Activity Fields by Filer
                                       Group

                         35.00%




                         30.00%




                         25.00%
Percentage of Problems




                         20.00%                                                                              SAR-depository institutions
                                                                                                             SAR-MSBs
                                                                                                             SAR-casinos and card clubs
                         15.00%                                                                              SAR-securities and futures firms




                         10.00%




                         5.00%




                         0.00%
                                  Dates of Suspicious Amount of Suspicious Types of Suspicious   Narrative
                                       Activity            Activity             Activity
                                                                     Data Field




                             More Than Half of the SARs Submitted by Certain Depository
                             Institutions Had Data Quality Problems

                             Although depository institutions showed improvement as a
                             whole from our prior audit -- with the percentage of problem
                             SARs dropping from 56 percent to 34 percent -- data quality
                             problems continued to exist for many, including several large
                             banks or thrifts with assets of $30 billion or greater. These
                             banks or thrifts had a higher than average percentage of fields
                             with missing, incomplete, inconsistent, or inappropriate data.
                             Table 3 shows the 25 depository institutions with at least 50
                             percent of their SARs with problems, listed by total SARs filed.
                             Data quality problems were evident in 68 percent of the SARs
                             they filed, ranging from a low of 51 percent to a high of 100
                             percent. We believe the range of SAR data quality problems
                             within this group of 25 (but also among all depository


                             SAR Data Quality Requires FinCEN’s Continued Attention                                         Page 20
                             (OIG-10-030)
institutions), raises questions about why certain institutions
have a far greater percentage of problems than others.

Table 3: Depository Institutions (Top 25) With More Than Half of Their
         SARs Having Missing, Incomplete, Inconsistent or Inappropriate
         Data
                                              SARs with         % of SARs
Depository institution        SARs filed       problems      with problems
 A                                1,005            1,005             100
 B                                   660             660             100
 C                                   488             467               96
 D                                   473             440               93
 E                                   591             541               92
 F                                3,033            2,699               89
 IndyMac Bank FSB                 1,723            1,487               86
 G                                1,824            1,381               76
 H                                   712             535               75
 I                                   513             386               75
 J                                3,499            2,600               74
 K                                   661             488               74
 L                                1,074              757               70
 M                                   605             415               69
 N                                   736             476               65
 O                                3,213            2,014               63
 P                                1,982            1,241               63
 Q                                5,056            3,042               60
 R                                1,204              727               60
 S                                   763             450               59
 T                                1,549              875               56
 NetBank FSB                         875             480               55
 U                                2,990            1,592               53
 V                                   715             380               53
 X                                5,238            2,692               51
   Total                         41,182           27,830               68
  Source: OIG analysis of fiscal year 2006 SAR database. Since our audit
  period, IndyMac Bank FSB and NetBank FSB failed. The names of the
  active depository institutions in the above table were provided to FinCEN.



FinCEN Said Our Results Overstate SAR Data Quality Problems
Because Filers Are Allowed to Omit Information from SARs

Recognizing that filers may not always have complete
information available on a suspicious transaction, FinCEN
pointed out that there are valid reasons why filers omit

SAR Data Quality Requires FinCEN’s Continued Attention                   Page 21
(OIG-10-030)
certain information. FinCEN management also expressed
their belief that our conclusions about the extent of data
quality problems are overstated. FinCEN management stated
that SAR form instructions generally make it clear that any
field for which information is not available should be left
blank. To meet SAR legal requirements, a filer needs only to
submit a SAR within 30 days of a suspicious transaction, or
60 days if the filer needs more time to identify the subject.
FinCEN is satisfied with entering these SARs into the
database.

According to FinCEN management, even a SAR with missing
critical data has value to law enforcement. Also, FinCEN
expects that MSBs have more SARs with missing data than
depository institutions because depository institutions
inherently have more data on individuals they do business
with than MSBs. MSBs deal with a more transient population
and the customer-MSB relationship is usually more short-
term than the customer-depository institution relationship.

We agree that SARs, even with missing critical data, can
have value to law enforcement. However, we believe more
complete and accurate SAR submissions would have
additional value, particularly when there are questions about
whether the missing data are available to the filer. For
example, depository institution filers are supposed to
indicate on the submission record when the subject data are
unavailable and left blank. However, this box was not
checked for 79 percent of SARs with missing critical subject
field data (about 105,000 SARs of about 133,000 SARs
filed by depository institutions). Of these SARS, 2,975 SARs
had no subject information at all, while others contained
limited subject data such as a telephone number or a date of
birth. We also noted that even when the box was checked
(about 28,000 SARs), indicating that the data were not
available, the filer for about 1,600 of these SARs had
included either some or all of the subject data.

In addition, some SAR data that were missing should clearly
have been available to the financial institution, including the



SAR Data Quality Requires FinCEN’s Continued Attention   Page 22
(OIG-10-030)
type of suspicious activity noted, the location of the
suspicious activity, or the institution’s address.

When we discussed these conditions with FinCEN, we were
told that a large volume of “corrected” SARs are submitted
following original submissions that augment the original
SARs, though these SARs are not always identified as
corrected.

FinCEN management further stated that SARs may provide
the needed information in the narrative section of the forms.
FinCEN was concerned that our findings relative to missing
data in SAR fields were not adjusted to take narrative
information into consideration. While we appreciate this
concern, it was not practicable for us to review the
narratives for 1.1 million SARs. It should also be noted that
providing data in the narrative in lieu of recording the
information in a SAR data field is contrary to the instructions
for the SAR forms. If, in fact, this practice (putting
information in the narrative instead of specific data field) is
widespread it would also distort trend analyses of SAR data
by FinCEN and other law enforcement agencies.

That said, we also believe that it would be difficult, time-
consuming and costly, for law enforcement doing
widespread searches of the database for particular field data,
to hunt for these data in narratives, on the chance that filers
placed important information in the narratives rather than in
the correct data fields.

While filers may omit SAR data they do not have, it is not
possible to determine by reviewing SARs with missing data
whether the filers had the data available or not. We observed
certain data omitted that clearly should have been available
to the financial institution, such as the type of suspicious
activity noted, the institution’s address, or the location of
the suspicious activity. We also observed that among similar
types and size institutions, the percentage of submitted
SARs with data quality problems can vary significantly. This
raises a question as to why certain institutions consistently



SAR Data Quality Requires FinCEN’s Continued Attention   Page 23
(OIG-10-030)
            provide SARs with fewer data quality problems than other
            similar institutions.

Finding 2   Improved System Controls Are Needed

            We found thousands of SARs with errors and other data
            quality problems that were not identified and corrected
            during SAR processing. These problems included incorrect
            recording dates, shifting of data from one field to another
            which changed the data’s meaning, and missing or
            unassigned document control numbers used to account for
            the SARs.

            These control weaknesses affect the quality and in some
            cases availability of the SAR data to law enforcement.
            FinCEN management was aware of some, but not all of
            these processing control issues identified by our audit.
            During our audit, we also discussed the control weaknesses
            with IRS officials who stated that they were working to
            correct the problems related to processing of BSA data.

            Questionable Data Entry Dates

            According to an agreement between IRS and FinCEN, IRS is
            to load SAR data into the SAR database within 10 working
            days. To assess the timeliness of SAR data loading into the
            SAR database, for each SAR received in fiscal year 2006,
            we compared the date that the SAR was received with the
            IRS load date. While the SARs generally appeared to be
            loaded timely, we often saw data that raised questions about
            the validity of the entry dates. Examples of issues identified
            with entry dates included:

                •   Over 23,600 paper SARs submitted by MSBs that
                    were recorded as having been received by IRS and
                    entered into the database on the same dates. We do
                    not believe that this could be correct because IRS
                    transports paper SARs to another state for data entry
                    and subsequent processing. Thus, for the entry dates
                    to have been accurate, the SARs would have to have
                    been received, shipped out of state, key-entered to

            SAR Data Quality Requires FinCEN’s Continued Attention   Page 24
            (OIG-10-030)
                              magnetic format, transmitted back to IRS, and entered
                              into the database on the same day they were
                              received—unlikely, in our view.

                          •   Over 2,4OO SARs E-Filed by MSBs recorded as having
                              been received at IRS on June 28, 2006, but recorded
                              as having been entered into the database on
                              August 22, 2006—55 days later. The loading of
                              E-Filed SARs into the database normally occurs on or
                              about the same day they are received at IRS. These
                              SARs were included in a transmission file to FinCEN
                              dated June 29, 2006, indicating they were loaded
                              well before the August 22, 2006, date identified by
                              IRS.

                      IRS officials involved with SAR data processing agreed that
                      there were problems with certain entry dates.

                      In addition to entry date errors, we also identified SARs that
                      were significantly delayed in being entered into the
                      database. 18 For example, 1,108 SARs filed by depository
                      institutions were recorded as received at IRS on January 18,
                      2006; however, those SARs were not available in the SAR
                      database until 303 days later. Another 85 SARs that were
                      recorded as received on September 25, 2006, were not
                      available in the SAR database until 129 days later. FinCEN
                      brought to our attention an additional 2,518 SARs with entry
                      delays of up to 133 days.

                      Errors Resulting From Data Shifting

                      Data shifting occurs when all or portions of an entry for a
                      data field included in data files used to upload SARs to
                      WebCBRS appear in the positions reserved for other data
                      fields. This condition can occur when electronic files used to
                      enter SAR data in WebCBRS are not properly formatted. The
18
   Transmission files are generated by IRS and transmitted to FinCEN, where they are uploaded
to an internal database. We identified transactions for fiscal year 2006 SAR submissions in
transmission files generated through January 10, 2007. All SAR data at IRS are included in the
FinCEN database. FinCEN uses these data for analytical studies and trend analyses in support of
law enforcement. Four law enforcement agencies also obtain bulk SAR data through these files
for use in internal data applications.

                      SAR Data Quality Requires FinCEN’s Continued Attention            Page 25
                      (OIG-10-030)
values in the files are loaded to WebCBRS based on the
expected position of the data. In cases where the data is
misaligned in the source file, the data once loaded to
WebCBRS will appear in incorrect positions on the SAR
record and can distort the meaning of the SAR information.

We found that data for 648 SARs from 14 depository
institutions that were filed in a magnetic format were shifted
and that the repositioned data changed the meaning and
validity of some of the information provided. Affected fields
included violation start and end dates, violation amounts, the
type of suspicious activity, and other activity description
fields. For example, we saw data on one SAR that
incorrectly identified the reported suspicious activity as
possible identify theft, false statement, and wire transfer
fraud. The filer was actually reporting an unregistered MSB.

We reviewed a sample of these SARs to determine how the
data was stored on the WebCBRS. Our testing confirmed
that the data were stored in the incorrect positions on the
WebCBRS database. This indicates that the data were
received at IRS from the filer in the incorrect format. IRS did
not identify these format errors prior to loading the data to
WebCBRS.

FinCEN staff stated that the data shifting problem was
caused by a faulty software patch transmitted by a software
vendor to client banks. FinCEN said all affected financial
institutions were required to file corrected SARs and verified
that the last of these SARs had been corrected in March
2007. We did not verify this information during our review.
Nonetheless, this problem demonstrates that sufficient
controls were not in place to prevent SARs with significant
data problems from being entered into the database.




SAR Data Quality Requires FinCEN’s Continued Attention   Page 26
(OIG-10-030)
                      Certain Document Control Numbers Could Not be Located in
                      WebCBRS

                      We identified 377 document control numbers 19 (associated
                      with 299 magnetic and 78 paper filing formats) that we
                      could not find on WebCBRS or in transmission files provided
                      by IRS to FinCEN. Research by the IRS confirmed that the
                      document control numbers for the magnetic filings were
                      never assigned to SAR submissions because IRS failed to
                      reset the numbering sequence during the load process on
                      two dates.

                      Testing of a sample of the unaccounted for document
                      control numbers for the paper submissions disclosed that
                      many were included in incorrect batch types and were likely
                      re-assigned new document control numbers prior to
                      processing. In five cases tested, IRS was not able to
                      determine the disposition of the unaccounted for numbers.
                      Each case tested required detailed IRS research since no
                      master log of unassigned document control numbers was
                      maintained.

Conclusions

                      SARs provide critical information on potential money
                      laundering and terrorist financing. However, SARs
                      completed incorrectly or submitted without known
                      critical data diminish the overall quality of the data and,
                      consequently, their usefulness to FinCEN, law
                      enforcement, and others. While some data quality
                      problems are inevitable, our analysis of the 2006 SAR
                      data indicates that these problems continued to occur
                      at an unacceptable rate, and that missing data and
                      omissions should be of concern to FinCEN and law
                      enforcement. We believe continued and enhanced
                      efforts by FinCEN are essential to ensure filers are
                      exercising diligence in obtaining, recording, and
                      submitting all requisite SAR information. The volume of

19
  IRS assigns a document control number to each SAR received. The numbers are sequential
and unique for each type of SAR and filing method. The numbers can be used to ensure that all
submissions are accounted for and loaded to the database.

                      SAR Data Quality Requires FinCEN’s Continued Attention           Page 27
                      (OIG-10-030)
             data quality problems clearly suggests that additional
             steps need to be taken to address this issue.

Recommendations

             We recommend that the Director of FinCEN do the following:

                  1. Continue and enhance filer education and outreach
                     programs as necessary to filer groups, as was done
                     for MSBs, specifically stressing the importance of
                     accurate subject, filer, activity, and narrative
                     information, and the importance of correct data
                     formats.

                     Management Response

                     FinCEN stated that enhancing filer education through
                     guidance and outreach is an ongoing responsibility.
                     FinCEN issues filer guidance documents and routinely
                     publishes filer tips in the SAR Activity Review: Trends,
                     Tips and Issues publication. FinCEN has also issued
                     other guidance documents and/or publications aimed
                     specifically at improving SAR filing.

                  2. Identify financial institutions with significant and
                     recurring SAR quality problems and emphasize to the
                     appropriate federal regulators the need to have
                     financial institution examiners identify during onsite
                     examinations causes for the problems and actions the
                     financial institutions need to take to improve SAR
                     quality.

                     Management Response

                     FinCEN stated it has a robust initiative to identify
                     systemic filing errors and worked with federal
                     regulators in 2009 to resolve over 100 such matters.
                     Additionally, the BSA/Anti-Money Laundering
                     (BSA/AML) Examination Manual issued by the Federal
                     Financial Institutions Examination Council outlines the
                     required examination procedures specified in the

             SAR Data Quality Requires FinCEN’s Continued Attention   Page 28
             (OIG-10-030)
        recommendation and similar language was included in
        the Department of the Treasury BSA/AML Examination
        Manual for MSBs.

    3. Coordinate with IRS to evaluate, implement, and
       improve controls over SAR data, including but not
       limited to

        •   procedures to ensure the initial entry date for each
            SAR is properly retained;
        •   controls to ensure that all SAR batches are
            properly processed accounted for and loaded
            timely;
        •   controls to identify SARs with significant data
            format issues impacting data quality and prevent
            these submissions from being loaded; and
        •   a control log for all unassigned/unused document
            control numbers that properly maintains control
            over all SAR submissions.

        Management Response

        FinCEN responded to the four areas identified in the
        recommendation as follows:

        •   The issue of recording the initial entry dates
            referenced in the report was attributable to a
            programming error in a legacy database that was
            subsequently replaced by a new database. Since
            the conversion in September 2006, there have
            been no known issues with capturing the initial
            entry date.
        •   In April 2009, IRS updated its programs to ensure
            that all electronically filed SARs are loaded into the
            system of record upon receipt. As a result, IRS has
            eliminated the previous dependency of only loading
            electronic SARs when paper SARs are available to
            load. In addition, IRS now monitors a log to
            validate the success of each load and that the
            number of records received via E-Filing equals the
            number loaded into the system of record.

SAR Data Quality Requires FinCEN’s Continued Attention     Page 29
(OIG-10-030)
        •   Magnetic media filings were retired in December
            2008, and any findings associated with these
            filings are no longer applicable.
        •   In January 2009, FinCEN established a monthly
            procedure to identify all missing DCNs and submit
            a corresponding report to IRS for investigation and
            resolution. FinCEN provided the IRS all missing
            DCN numbers from January 1, 2008, to the
            present for analysis and action.

4. To assist in future SAR form revisions and filer education
   and outreach efforts, request IRS to periodically notify
   FinCEN of SARs containing significant errors or missing
   critical data fields.

    Management Response

    FinCEN stated it currently receives quarterly reports from
    IRS designed to identify financial institutions with
    systemic data omission problems and monthly reports for
    individual SAR forms identifying errors for paper-filed
    SARs. Also, a SAR validation process is scheduled to be
    implemented in BSA E-Filing in December 2009. After
    implementation, FinCEN will develop a new E-Filing report
    that includes all SAR filings with significant errors for
    FinCEN compliance staff to monitor. The estimated
    completion date for this recommendation is February
    2010.

OIG Comment

FinCEN’s actions, taken and planned, meet the intent of our
recommendations.




SAR Data Quality Requires FinCEN’s Continued Attention   Page 30
(OIG-10-030)
                                 ******

We would like to extend our appreciation to FinCEN
personnel for the cooperation and courtesies extended to our
staff during this review. If you have any questions, please
contact me at (617) 223-8640.


/s/
Donald P. Benson
Audit Director




SAR Data Quality Requires FinCEN’s Continued Attention   Page 31
(OIG-10-030)
Appendix 1
Objective, Scope, and Methodology




The objective of this audit was to evaluate the status of SAR data
quality. To accomplish our objective, we reviewed the actions
FinCEN took in response to our 2005 audit report
recommendations, evaluated the current processes for receiving
and processing SARs, and analyzed one year’s worth of SAR data.

To determine the status of corrective actions FinCEN took in
response to our 2005 audit, we requested information on the
actions taken and supporting documentation from FinCEN.

We visited the Internal Revenue Service’s (IRS) Enterprise
Computing Center in Detroit, Michigan, to obtain an understanding
of SAR processing. We determined the steps associated with SAR
processing through interviews with IRS officials, direct observation,
and review of applicable documents.

We obtained data included in IRS-generated transmission files from
October 1, 2005, through January 10, 2007, consisting of SARs
filed by depository institutions, money services businesses, casinos
and card clubs, and securities and futures firms. From these data,
we identified approximately 1.1 million SARs filed from October 1,
2005, through September 30, 2006. The total number of SARs
filed during fiscal year 2006 is shown by institution type in table 4.

 Table 4: Fiscal Year 2006 SAR Filings by Group and Method
                                                          Magnetic/             Total
 Group                                    Paper              E-Filed           SARs
 Depository institutions                193,104            370,272           563,376
 Money services businesses              134,002            351,249           485,251
 Casinos and card clubs                   6,464                369             6,833
 Securities and futures firms             5,988              1,701             7,689
   Total                                339,558            723,591         1,063,149
 Note: This table does not include 2,603 SARs filed by depository institutions received
 by IRS in September 2006 that were not loaded into WebCBRS until February 2007
 and 2 SARs filed by securities and future firms that were received in September 2006
 and not transmitted to FinCEN until October 2007.

 Source: OIG analysis of fiscal year 2006 SAR data.


Within the population of fiscal year 2006 SAR filings, we examined
17 data elements common to all SAR types and identified by
FinCEN as critical to law enforcement. The 17 data elements were
associated with subject, institution, business transaction location,

SAR Data Quality Requires FinCEN’s Continued Attention                          Page 32
(OIG-10-030)
                       Appendix 1
                       Objective, Scope, and Methodology




                       narrative description, and other data categories. We examined the
                       content of the 17 critical data fields to identify the number of
                       omissions and to assess the validity, usability, and consistency of
                       the data. In assessing omissions, we excluded subject fields
                       associated with SARs having suspicious activity amounts of less
                       than $3,000 because, in some cases, filers are not required to
                       record subject information for transactions falling beneath that
                       threshold. We did not search narratives for the 1.1 million SARs to
                       determine if information was contained in narratives that would
                       compensate for omissions in these data fields.

                       In assessing the usefulness of the 17 critical data fields, we applied
                       guidelines included within the SAR instructions, state and country
                       code tables identified on FinCEN’s Web site, and FinCEN’s
                       guidelines to filers with respect to addressing common SAR errors.
                       In assessing the quality of SAR narratives, we used FinCEN’s
                       standard of 40 characters or less to define a deficient narrative.

                       We did not consider a blank taxpayer identification number field as
                       an omission if other data in the SAR indicated that the institution or
                       subject was associated with a foreign address. For the review of
                       ZIP codes, we assessed entries with five and nine numeric
                       character formats for U.S. locations against U.S. Postal Service
                       information. For foreign locations, we accepted any values in these
                       fields, including omissions.

                       We allowed for omissions, or any value, in the state 20 and tax
                       identification number fields if the subject, filing institution, or MSB
                       transaction location was reported to be outside the United States,
                       Mexico, or Canada. In addition, a proper country code had to be
                       provided in order for us to allow the omission. 21

                       We assessed the reliability of the electronic data that FinCEN
                       provided to us by reconciling the data to similar information we
                       obtained from IRS. We did not test the security of IRS’s SAR



20
   If a state code was listed, we verified that it did not coincide with a U.S., Mexican, or Canadian
state/province published by FinCEN in the FinCEN Standard State/Country Code.
21
   In order to allow an omission, the country code had to be published by FinCEN in the FinCEN
Standard State/Country Code.

                       SAR Data Quality Requires FinCEN’s Continued Attention                     Page 33
                       (OIG-10-030)
Appendix 1
Objective, Scope, and Methodology




database and, therefore, are unable to conclude on the integrity of
the data contained therein.

We performed our fieldwork from January 2007 to March 2008.
We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




SAR Data Quality Requires FinCEN’s Continued Attention       Page 34
(OIG-10-030)
                  Appendix 2
                  FinCEN Actions Taken on the Recommendations in the 2005 OIG Audit Report



            Recommendations                                                               FinCEN Actions
1. Given the results of our sample,            FinCEN concurred; and assigned responsibility to three existing Assistant Directors. The positions
establish a position for a BSA data            responsible for overseeing operations of these three offices are: Assistant Director, Office of
administrator (i.e., data integrity officer)   Regulatory Analysis; Assistant Director, Office of Compliance; and Assistant Director, Office of BSA
with specific responsibility for ensuring      Data Services.
the accuracy and timeliness of the SAR
data system, or assign this responsibility
to an existing position. We believe this
would enhance both accountability and
FinCEN’s responsiveness to SAR users,
filers, and regulators. We also believe
this position would be better situated by
reporting directly to FinCEN rather than
the IRS.
2. Establish measurable standards to           FinCEN instituted measurable standards to address the critical data fields that are responsive to law
address at least two data quality              enforcement, federal regulators and SAR filers’ needs. In July 2007, FinCEN issued Standards and
aspects: critical data fields that are         Procedures for Suspicious Activity Report Data Quality Studies to provide standards, procedures, and
responsive to law enforcement needs,           guidance for developing and implementing SAR data quality studies. FinCEN surveyed certain
and an acceptable level of data quality.       representatives of the Bank Secrecy Act (BSA) Advisory Group on SAR critical fields. The majority of
                                               respondents agreed that the fields identified by FinCEN were critical.
3. Establish a process to periodically         FinCEN established a policy to periodically obtain input from law enforcement. The process is an
include input from law enforcement case        annual survey through the BSA Advisory Group. The survey was put on hold pending the release of
agents for a contemporary investigative        the revised SAR Forms, expected in 2007. However, the implementation of the revised SAR forms
perspective.                                   has been put on hold. No implementation date has been announced.
4. Assess the need to identify the             FinCEN assessed duplicate SARs and determined that the total was less that 2 percent of total filings.
specific data fields associated with the 1     FinCEN determined that the impact was minimal.
5,000 duplicates and advise law
enforcement so that they may better
gauge the potential impact of duplicates.
Duplicate SARs involving certain crimes
may be of more importance to certain
law enforcement agencies given their
differing authorities over certain crimes
such as credit card fraud versus
mortgage loan fraud.




                  SAR Data Quality Requires FinCEN’s Continued Attention                                                            Page 35
                  (OIG-10-030)
                 Appendix 2
                 FinCEN Actions Taken on the Recommendations in the 2005 OIG Audit Report



           Recommendations                                                              FinCEN Actions
5. Assess the need and feasibility of        FinCEN originally responded that its BSA Direct Retrieval and Sharing system, under development,
identifying, tagging or segregating          would be able to identify, tag or segregate duplicate SARs after input to the system. This project was
duplicate SAR filings into a suspense file   terminated in March 2006. We asked FinCEN for an update of action taken in lieu of this project.
until a more systematic process can be       FinCEN responded that under IRS’s Currency and Banking Retrieval System (CBRS), FinCEN submitted
developed to prevent them from being         a request to begin receiving duplicate SAR data on a quarterly basis from IRS’s Enterprise Computing
entered into the system.                     Center in Detroit. In September 2006, just prior to the conversion to Web CBRS, an updated version
                                             of the old CBRS, FinCEN submitted an updated request to allow for the continued receipt of duplicate
                                             SAR data under the new system. At the time of our review, IRS had not implemented this request.
6. Advise and solicit the views of law       FinCEN tried once to solicit input from law enforcement utilizing a survey but received no response.
enforcement agencies as to whether the       FinCEN does not plan to solicit another response.
observed timeframes are responsive to
their needs. In so doing, FinCEN will be
better positioned to assess any needed
changes, such as whether filer outreach
or supervisory oversight should be
focusing on the timely filing of SARs.
7. Assess the need to review timeliness      In July 2007, FinCEN updated its Standards and Procedures for Suspicious Activity Report Data
as part of the planned quarterly SAR         Quality Studies with new annual study data and benchmarks. The updated document includes
reviews for indications of potential         timeliness as a planned quarterly review item. FinCEN was working to resolve problems with the
violations of the regulatory filing          quarterly reporting of SARs for depository institutions and MSBs caused by its analytical software
timeframes.                                  program, VisualLinks.
8. Assess the need to refer any of the       The Standard Procedures for Suspicious Activity Report Data Quality Studies includes a section to
identified lengthy filing timeframes         calculate the average days between the date a SAR is prepared and the IRS input date. FinCEN has
(those exceeding 30 or 60 days) to the       not made any referrals to regulatory agencies based on lengthy filing timeframes. FinCEN relies on
applicable regulatory agencies to            regulatory examiners to review the timeliness of SAR filing during BSA compliance examinations.
determine whether timely SAR filing is
an area warranting detailed examination
or enforcement action.




                 SAR Data Quality Requires FinCEN’s Continued Attention                                                           Page 36
                 (OIG-10-030)
                 Appendix 2
                 FinCEN Actions Taken on the Recommendations in the 2005 OIG Audit Report



            Recommendations                                                               FinCEN Actions
9. Assesses the adequacy and                  In June 2005, the Federal Financial Institutions Examination Council, representing the collective
consistency of regulators’ examination        efforts of the five federal banking agencies in collaboration with FinCEN and the Office of Foreign
handbooks covering financial                  Assets Control, issued a BSA/AML (Bank Secrecy Act/Anti-Money Laundering) examination manual
institutions’ compliance with the BSA         for use by regulatory examiners. This manual has been update twice, in 2006 and 2007.
SAR filing requirements. This
assessment should include the need to
clearly spell out examiners
responsibilities, and the examination
procedures to determine whether
institutions are filing accurate, complete,
and timely SARs.
10. Ensures that the Office of                FinCEN’s Office of Compliance Procedures for Referring Compliance Matters to Other Agencies or
Compliance establishes policies and           Issuing Compliance Advisories, Ver. 12-07-2006. The Procedures for Referring Compliance Matters
procedures for timely routine follow-up       section includes procedures for following up on referrals sent to regulatory agencies. The procedure
on regulatory referrals to federal            states that follow up procedures will vary depending on the memorandum of understanding between
regulators to determine their supervisory     FinCEN and the regulatory agency, and that outstanding referrals should be discussed with the
resolution.                                   regulatory agency at regularly scheduled meetings. For significant BSA violations or deficiencies, the
                                              regulators are supposed to notify FinCEN “as soon as practicable,” but no later than 30 days after the
                                              resolution.
11. Assess the need for either enhanced       FinCEN took regulatory action against one of the three MSBs, issuing a civil money penalty against
outreach or supervisory enforcement           one based, in part, on SAR deficiencies. Because the second MSB was owned by the same parent
action with the three MSBs accounting         company the first, FinCEN expected that any corrective actions taken to improve BSA compliance
for over 77% of the problem MSB SARs          would be implemented at both. In the case of the third MSB, FinCEN used outreach to try to improve
in our sample.                                BSA Compliance. While the outreach initially proved successful, a recent review by the Office of
                                              Compliance indicates that once again the third MSB was filing problematic SARs, including
                                              widespread errors in multiple fields on the forms. In July 2007, a conference call was held with
                                              participants from the Office of Compliance, MSB, and IRS. The MSB agreed with all findings, and
                                              committed to correct all items in future filings, and to file amended reports correcting past filings by
                                              the middle of August 2007.




                 SAR Data Quality Requires FinCEN’s Continued Attention                                                             Page 37
                 (OIG-10-030)
                 Appendix 2
                 FinCEN Actions Taken on the Recommendations in the 2005 OIG Audit Report



           Recommendations                                                              FinCEN Actions
12. Assess the need to expand the            FinCEN reviewed the details of the keystroke verification performed by IRS’s Enterprise Computing
number of data fields subject to             Center. IRS’s statistician determined that 100 paper-filed SARs needed to be reviewed to obtain 95
keystroke verification to include data       percent confidence in sample results. IRS now reviews 100 SARs each month or 1,200 documents
fields critical to law enforcement.          annually, rather than reviewing all BSA documents every 6 months. All SAR fields IRS selects are
                                             reviewed, which includes the fields considered critical by law enforcement. FinCEN has concluded
                                             that the keying contractor has met all required accuracy standards. FinCEN acknowledged there was
                                             a period of time when it did not receive the SAR keying reviews but reported that it had submitted a
                                             work request in July 2007 to the IRS Enterprise Computing Center to ensure that going forward,
                                             FinCEN receives a quality review report from IRS for every month that one is conducted.
13. Reassess how the contractor’s 3%         FinCEN concurs with IRS’s method for determining the contractor's 3 percent performance standard.
performance standard is to be measured       The reviews continue to be based only on the number of errors and do not give consideration to the
so as to give greater consideration to the   number of SARs filed with errors.
number of SARs with errors rather than
just the total number of errors. This
would provide added perspective to
situations where a few SARs account
for a large number of errors as opposed
to a large number of SARs each with a
few errors.
14. Assess whether the scope of the          IRS’s Enterprise Computing Center projected it would cost over $200,000 annually to hire additional
contract could be economically and           staff to correspond with SAR filers on missing information. Given inconclusive results on an IRS pilot
feasibly expanded to identify SARs with      of this program, FinCEN concluded that the most cost effective approach would be to move the filers
missing and or incomplete data fields.       to electronic filing and to revise the SAR forms.
This might provide FinCEN with a means
of identifying egregious problem filers in
a timelier manner than the quarterly
reviews noted in the revised corrective
action plan. This would also cover the
majority of SARs since most SARS are
filed by paper.




                 SAR Data Quality Requires FinCEN’s Continued Attention                                                           Page 38
                 (OIG-10-030)
Appendix 3
Management Response




SAR Data Quality Requires FinCEN’s Continued Attention   Page 39
(OIG-10-030)
Appendix 3
Management Response




SAR Data Quality Requires FinCEN’s Continued Attention   Page 40
(OIG-10-030)
Appendix 3
Management Response




SAR Data Quality Requires FinCEN’s Continued Attention   Page 41
(OIG-10-030)
Appendix 3
Management Response




SAR Data Quality Requires FinCEN’s Continued Attention   Page 42
(OIG-10-030)
Appendix 3
Management Response




SAR Data Quality Requires FinCEN’s Continued Attention   Page 43
(OIG-10-030)
Appendix 4
Major Contributors to This Report




Stephen Syriala, Audit Manager (Retired)
Kenneth Dion, Audit Manager
Mark Ossinger, Audit Manager
Maryann Costello, Auditor-in-Charge
Alex Taubinger, Auditor
Jeanne DeGagne, Auditor
Kenneth Harness, Referencer




SAR Data Quality Requires FinCEN’s Continued Attention   Page 44
(OIG-10-030)
Appendix 5
Report Distribution




Department of the Treasury

Deputy Secretary
Under Secretary, Office of Terrorism and Financial Intelligence
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Crimes Enforcement Network

Director

Internal Revenue Service

Associate Commissioner for Modernization
Director, Fraud/Bank Secrecy Act
   Small Business/Self Employed Division
Legislative Analysis Officer (Audit Coordinator)
Treasury Inspector General for Tax Administration

Office of Management and Budget

OIG Budget Examiner




SAR Data Quality Requires FinCEN’s Continued Attention        Page 45
(OIG-10-030)
